     Department of Homeland Security

     ��������������������������



            DHS' Policies and Procedures 

                 Over Conferences 





OIG-13-96                                    June 2013

                           OFH CE OF INSPECTOR GE~ERAL
                                 Pc:partmenl (If Homeland Security


                                           June 11, 2013


MEM ORANDUM FOR:               Th e Hon orable Peggy Sherry
                               Chief Financial Offker
                               Depa rtment of Homeland Security

FROM :
                               ~:'::; I~'~~:::~,"""I ~n-t ~~
SUBJECT:                       OHS' PoIKies and P,oretiV(f!S ~r Conferences

Anadled for your action is o ur final repon, DHS' Policies and Proci!dvres Over Con/eren(1!S.
We incorporJled the formal c:ommenu from the Department In the final re pon ,

The re port (o nt ains one re to mme nda ti on to assil;tthe Managem ent Oiretto rate in
improv ing oversight and repo rt in g of co nference planning and approval of act Mt le s across
th e Oepartment_ Your office con curred with the recommendation. Based on Information
prov ided in your response to the draft re port, we conside r the recomm end ation re~ olved.
On ce your office has fully implemented the recommendation, ple~se submit Bformal
closeout letter to us within 30 d~ys so that we may close the re<:ommendatlon. The
me mora ndum shOtJld be accompanie d bv evid ence of rompletion of ~gre lKl ·up on corrective
actions and of the disposi tion o f any monetary amounts_

COnsiste nt with our responsibility under the Inspecror Geflf'rol Act, we .life providing copies
o f our re pon to i1ppropriate congressional committees with oversight and appropr iation
responsibility over the De pa rtment of Homeland 5&urity. We win pou the repon on our
we bsite for public dissemination.

Please call me with any question s, or your staff m~y contact Anne L. Ric hard s, As sist;mt
In spector Genera l for Audits, at (202) 254·4100.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1 


   Background ........................................................................................................................ 2 


   Results of Audit ................................................................................................................... 3 


              Compliance with Federal Policies and Requirements ............................................ 3 

              Recommendation ................................................................................................... 8 

              Management Comments and OIG Analysis ........................................................... 8 


   Appendixes
              Appendix A:          Objectives, Scope, and Methodology ............................................ 11 

              Appendix B:          Management Comments to the Draft Report ............................... 13 

              Appendix C:          Major Contributors to This Report ................................................ 18 

              Appendix D:          Report Distribution ........................................................................ 19 


   Abbreviations
              CFO                   Chief Financial Officer
              DHS                   Department of Homeland Security
              FMPM                  Financial Management Policy Manual
              FY                    fiscal year
              OCFO                  Office of Chief Financial Officer
              OIG                   Office of Inspector General
              OMB                   Office of Management and Budget




www.oig.dhs.gov                                                                                                                  OIG-13-96
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   The Department of Homeland Security (DHS) conducts and participates in conferences
   for various purposes, including employee and stakeholder training, information sharing,
   and mission support. According to the Department, it participated in 1,094 conferences
   in fiscal year 2012, with expenditures totaling approximately $21.6 million. We conducted
   this audit in response to a mandate from the House Appropriations Committee, which
   directed the Office of Inspector General to report, no later than 30 days after the date
   of enactment of the DHS Fiscal Year 2013 Appropriations Bill, whether DHS has effective
   procedures in place to ensure compliance with all applicable Federal laws and
   regulations on conferences. The Fiscal Year 2013 Appropriations Bill was enacted on
   March 26, 2013.

   The Department has established policies and procedures to ensure that conference
   spending is appropriate and in the best interest of the U.S. Government and taxpayers,
   but further improvements are needed. Although the Department complies with most
   aspects of the Office of Management and Budget’s guidance, it has not finalized its
   guidance on conferences, and has not always adhered to its policies on conference
   oversight. To that end, DHS cannot be assured that all conference spending is
   appropriate or in the best interest of the U.S. Government and taxpayers.

   We made one recommendation to assist the Management Directorate in improving
   oversight and reporting of conference planning and approval of activities across the
   Department. Once fully implemented, this recommendation will enhance oversight.
   The Department agrees with our recommendation. To further assist the Department in
   its efforts to oversee conference spending, we are conducting a separate audit
   examining the controls over conference spending at selected Components.




www.oig.dhs.gov                               1                                        OIG-13-96
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   DHS secures the Nation from many threats through five core mission areas: prevent
   terrorism and enhance security, secure and manage U.S. borders, enforce and administer
   immigration laws, safeguard and secure cyberspace, and ensure resilience to disasters.
   The DHS workforce consists of more than 240,000 employees who are responsible for
   executing these missions, along with hundreds of thousands of people across Federal,
   State, local, and territorial governments; the private sector; and other nongovernmental
   organizations. DHS conducts and participates in conferences for various purposes,
   including employee and stakeholder training, information sharing, and mission support.

   According to the Department, during fiscal year (FY) 2012 it participated in 1,094
   conferences, with expenditures totaling approximately $21.6 million. The following nine
   DHS Components spent 91 percent of the total conference expenditures for FY 2012:

       •   Federal Emergency Management Agency
       •   National Protection and Programs Directorate
       •   Science & Technology Directorate
       •   Transportation Security Administration
       •   U.S. Citizenship and Immigration Services
       •   U.S. Coast Guard
       •   U.S. Customs and Border Protection
       •   U.S. Immigration and Customs Enforcement
       •   U.S. Secret Service

   In June 2011, the President’s Executive Order “Delivering an Efficient, Effective and
   Accountable Government” launched the Campaign to Cut Waste, which intensified
   efforts to identify areas across the Government where waste or excess may exist, and to
   take immediate steps to address them. In September 2011, Office of Management and
   Budget (OMB) Memorandum 11-35 instructed agencies to review their conference
   policies and internal controls to ensure they are appropriate and effective. It also
   required the Deputy Secretary’s approval of all conference activity until DHS certifies
   that appropriate policies and controls are in place. In November 2011, the President
   signed Executive Order 13589, “Promoting Efficient Spending,” which requires agencies
   to develop plans to ensure efficient spending in several areas, including conferences. In
   May 2012, OMB Memorandum 12-12 was issued, instructing agencies to initiate senior-
   level review of all planned conferences and approval of all future conference expenses of
   more than $100,000, prohibit expenses in excess of $500,000 on a single conference
   unless a waiver is obtained, and report publicly on all conference expenses exceeding
   $100,000. Throughout this report, we will refer to M-11-35 and M-12-12 as OMB
   guidance.


www.oig.dhs.gov                                2                                       OIG-13-96
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   We performed this audit to determine whether DHS has effective procedures to ensure
   compliance with all applicable Federal laws and regulations on conferences. To further
   assist the Department in its efforts to oversee conference spending, we are conducting
   a separate audit to examine controls over conference spending at selected Components.

   Results of Audit
   The Department has established policies and procedures to ensure that conference
   spending is appropriate and in the best interest of the U.S. Government and taxpayers,
   but further improvements are needed. Although the Department complies with most
   aspects of the OMB guidance, it has not finalized its guidance on conferences and has
   not always adhered to its policies on conference oversight. To that end, DHS cannot be
   assured that all conference spending is appropriate or in the best interest of the U.S.
   Government and taxpayers.

           Compliance with Federal Policies and Requirements

           Although the Department has taken positive steps to ensure that DHS complies
           with applicable policies and requirements governing conference spending,
           further improvements are needed. The Department currently does not have
           adequate controls to ensure that its Components adhere to the specific policy
           requirements over conferences.

           In June 2011, DHS revised its Financial Management Policy Manual (FMPM) and
           added Section 7.10 – Conferences to establish stronger controls to guard against
           inappropriate conference spending practices and to ensure conference
           attendance is driven by critical mission requirements. The updated policy—

                  •	 Established a separate section dedicated to conferences to highlight
                     specific controls rather than including conference-related policies in
                     various places throughout the travel policy manual;

                  •	 Established additional conference-related responsibilities for the Chief
                     Financial Officer (CFO) and Components;

                  •	 Clarified the definitions of and distinctions between conferences,

                     meetings, and training;


                  •	 Incorporated requirements to use Government facilities and cost-
                     effective alternatives to commercial facilities, and limit the number of



www.oig.dhs.gov                                    3                                  	       OIG-13-96
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


                     DHS attendees to conferences consistent with the Efficiency Review
                     travel directive;

                  •	 Added a section on the authority to collect conference fees from non-
                     Federal participants, including the statutory reporting requirement;

                  •	 Better defined DHS requirements to justify, document, and report

                     conference-related expenses; and 


                  •	 Added special reminders for travel approving officials to check for specific
                     entries in travel authorizations, such as use of noncontract carriers,
                     deductions of per diem when meals are provided at conferences, and
                     reasonableness of expenses requested.

           As part of the Campaign to Cut Waste, the Administration has taken steps to
           curtail conference spending and institute strict policies and controls over
           conferences, to ensure that conference expenditures are cost-effective, to
           clearly advance the mission and programmatic goals of the agency, and to
           represent the optimal use of Federal funds.

           OMB guidance issued in September 2011 requires that until the Deputy
           Secretary, or equivalent, certifies the appropriate policies and controls exist to
           mitigate the risk of inappropriate spending practices regarding conferences,
           approval of conference-related activities and expenses need to be cleared
           through the Deputy Secretary, or equivalent. In response to this guidance, the
           Department issued Acquisition Alert 11/28, also in September, which was
           effective immediately and mandated that all Component heads must submit
           conference approval requests to the Deputy Secretary through the Department’s
           Office of Chief Financial Officer (OCFO).

           On September 13, 2012, the Department amended its FMPM, and added Section
           7.10.1 – Conference Controls guidance to incorporate the reviewing requirement
           and set thresholds. It required Components to obtain proper approval for all
           conferences prior to obligating funds or entering into any agreement that plans
           or supports a conference. DHS’ estimated total cost of the conference determines
           the approval authority. The Department requires agency-sponsored conference-
           related spending above $10,000 to obtain the Deputy Secretary’s approval prior
           to obligating funds. The Component’s senior financial officers approve those
           conferences not exceeding $10,000. OMB’s guidance requires review of all
           conferences whose estimated net expense will exceed $100,000.




www.oig.dhs.gov                                    4                                  	     OIG-13-96
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           The Department relies on the Components to have adequate controls and
           submit all proposed conferences with estimated expenditures totaling more
           than $10,000 for review. For example, during our audit, one of the nine
           Components we reviewed did not submit proposed conferences over $10,000
           for review by the Department. According to a policy oversight official, the
           Component did not comply because when the guidance was issued, personnel
           believed there was a typographical error with the new threshold amount
           requirement. Instead of $10,000, they believed it to be $100,000, and therefore
           they disregarded it.

           The Department also did not have controls in place to track conference
           attendance at the consolidated level for non-DHS hosted conferences. The
           Department did not have a means to ensure Department review and Deputy
           Secretary, or equivalent, approval of any attended conference with estimated
           costs to the Department exceeding $100,000. In FY 2012 alone, the Department
           reported it attended or hosted 53 conferences where costs exceeded $100,000.
           The Department reports that it has now implemented an attendance tracking
           tool. This should assist the Department in meeting OMB guidance expectations
           in the future.

           Additionally, OMB guidance instructs each agency to publish on its website a list
           of all agency-sponsored conferences where the net expenses exceed $100,000.
           The U.S. Coast Guard’s Innovation Expo was published in the Department of
           Homeland Security Fiscal Year 2012 Annual Report on Conferences, per OMB
           guidance. Based on costs of $1.2 million, the conference should have been
           reviewed. However, this conference was not reviewed, and would have been
           noncompliant with subsequent OMB guidance, which prohibited conferences
           costing more than $500,000 unless a waiver was obtained. According to a
           Department official, the conference was not reviewed because the U.S. Coast
           Guard’s Innovation Expo took place just as the DHS CFO started reviewing
           conferences and therefore it did not go through the review process. This
           indicates that the Department did not review and the Deputy Secretary did not
           approve conferences costing more than $10,000 during the first month of
           FY 2012. In October 2011, expenses exceeded $10,000 at 38 conferences. Of
           these 38, 5 (including the U.S. Coast Guard’s Innovation Expo) were more than
           $100,000, which may have not been reviewed.

           Department Policies

           The Department has updated its policies and procedures several times since
           FY 2011 because of the changing OMB requirements and issues identified within
           other departments. As a result, the Components are still updating their policies


www.oig.dhs.gov                                5                                        OIG-13-96
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           and procedures to ensure compliance with all applicable Department guidance
           as well as Federal laws and regulations.

           In response to the September 2011 OMB guidance, the Department issued
           Acquisition Alert 11/28, which directed all Components to submit conference
           approval requests to the Deputy Secretary through the Department’s CFO. The
           Department’s FMPM, Section 7.10 – Conferences distinguishes between a
           conference and training if all conditions are met under Title 5, Section 410.404 of
           the Code of Federal Regulations. For example, certain professional organizations
           sponsor professional development conferences that should be considered
           training. To qualify as training, all of the following conditions have to be met:

                  •	 The announced purpose of the conference is educational or instructional;
                  •	 More than half of the time is scheduled for a planned, organized

                     exchange of information between presenters and audience;

                  •	 The content of the conference is germane to improving individual and/or
                     organizational performance; and
                  •	 Development benefits could be derived through the employee’s

                     attendance.


           If all of these conditions were met, the conference would be considered training
           and would not need to be submitted for conference reporting purposes.

           In May 2012, OMB’s guidance redefined a conference to include training events
           that involved travel. Four months later, in September 2012, the Department
           issued FMPM Section 7.10.1 – Conference Controls, which expanded the
           definition of a conference to include training and exercises and refers to the
           FMPM Section 7.10 for additional guidance. However, a conference considered
           training under Title 5, Section 410.404 of the Code of Federal Regulation remains
           classified as a conference for reporting purposes.

           In addition, OMB’s May 2012 guidance also established a threshold for
           Department review of all planned and future conferences over $100,000. The
           Department’s FMPM Section 7.10.1 lowered OMB’s threshold for Department
           review of conferences to those exceeding net estimated costs of $10,000.

           According to officials at five of the nine Components, it was unclear what
           constituted a “conference” for reporting purposes. Components might not have
           completed all appropriate reviews of conference spending because some
           spending was not appropriately identified as conference spending. However,
           during January 2013, DHS issued FMPM, Section 7.10.2 – Conference Controls



www.oig.dhs.gov                                  6                                 	     OIG-13-96
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           and Approval. This guidance clarifies and establishes thresholds for submitting
           training and travel as conferences and should help Components understand
           what conference spending should be reviewed.

           Department Oversight

           The Department did not perform its Annual Quality Control Review, which
           consists of testing conference data Components submitted in FYs 2011 and 2012
           as the FMPM requires.

           FMPM Section 7.10 established the requirement that the Department conduct
           an Annual Quality Control Review (Review) on conference spending throughout
           the Department. The Review requires the Department to analyze Components’
           data for accuracy and supporting documentation. Each Component submits to
           the Department its Annual Conference Spending and Activity Reports. These
           reports, due each December, show data from the prior fiscal year and allow the
           Department to track conference spending by multiple categories. However, the
           Department did not analyze the data for both fiscal years because of the
           constant revisions to OMB and Department guidance.

           The Department did not conduct the Review for either FY 2011 or FY 2012. In
           lieu of the Review, it conducted an assessment of controls within Department
           policy, as OMB guidance required in FY 2011. Although the Department only
           reviewed the controls and did not conduct any substantive testing, it concluded
           that conference-related expenses and activities are conducted efficiently and
           effectively in most instances. Without substantive testing of the controls, the
           Department cannot be assured that the controls were working as designed and
           preventing inefficiencies or inappropriate spending. We did not evaluate specific
           conference spending in this audit.

           A Department official stated the Review did not occur for FY 2012 because OMB
           guidance updates affected FY 2013. Therefore, the Department felt it would not
           be an efficient use of its resources to conduct the testing in FY 2012.

           As a result of these weaknesses in Department oversight, DHS cannot be assured
           that all conference spending is appropriate or in the best interest of the
           Government and taxpayers.




www.oig.dhs.gov                                7                                       OIG-13-96
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Recommendation

           We recommend that the Chief Financial Officer, Department of Homeland
           Security:

           Comply with OMB and Department guidance to ensure that—

                  •	 Components are submitting all conferences for review and approval;
                  •	 The attendance tracking tool actually captures attendance data and is
                     being used by all Components;
                  •	 All Components have updated their Conference policy requirements to
                     ensure compliance with DHS-wide policy requirements; and,
                  •	 The Annual Quality Control Review is conducted for FY 2013, and a plan is
                     implemented to conduct testing for all future fiscal years.

           Management Comments and OIG Analysis

           The Department provided comments on this draft report. A copy of the
           response in its entirety is included in appendix B. The Department also provided
           technical comments and suggested revisions to our report in a separate
           document. We reviewed the Department’s technical comments and made
           changes throughout our report where appropriate.

           Management Comments to the Recommendation

           Concur. The Department will ensure that Components are submitting all
           conferences for review and approval. The Department has established a
           conference review process that complies with OMB and Department guidance.
           Additionally, two offices within the OCFO, Financial Management, and the Risk
           Management and Assurance division will work in conjunction to leverage
           controls and compliance work. This should ensure all conferences over the
           $10,000 threshold are reviewed and approved. The Department also developed
           a Web-based approval and tracking tool that will allow Components to request
           conference hosting activities electronically. This tool should be able to track
           actual conference expenditures and develop ad hoc reports. The estimated
           completion date is May 31, 2013.

           The Department will ensure the attendance tracking tool actually captures
           attendance data and is being used by all Components. Specifically, the Financial
           Management office will continually monitor planned conference attendance
           through its Web-based tracking and reporting tool to identify those attended



www.oig.dhs.gov                                   8                                	     OIG-13-96
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           conferences that are over $100,000 and require Deputy Secretary approval. It
           also will periodically test and evaluate the usage to ensure all Components are
           actively using the tool. The estimated completion is September 2013.

           The Department will ensure all Components have updated their conference
           policy requirements to comply with DHS-wide policy requirements. The Office of
           Financial Management and the Risk Management and Assurance division are
           currently reviewing Components’ conference policy guidance to ensure that any
           deficiencies are identified and policies are updated accordingly. The estimated
           completion date is May 31, 2013.

           The Department will ensure the Annual Quality Control Review is conducted for
           FY 2013, and a plan is implemented to conduct testing for all future fiscal years.
           The Risk Management and Assurance division has incorporated conference
           control testing into their yearly assessment plan. The plan will examine
           conferences above and below the $10,000 threshold to support assurances of
           the Department’s conference controls and compliance with OMB guidance. The
           estimated completion is January 2014.

           OIG Analysis

           We consider the ongoing actions taken by the Department to be responsive to
           the recommendation and the recommendation resolved. However, it will
           remain open until we receive and review a copy of the following:

                  •	 Memorandum or other official notification sent to the Department and
                     Component heads alerting them of the Web-based approval and tracking
                     tool availability and use for conference hosting activities, a report of
                     actual conference expenditures produced by the tool for the fiscal year
                     quarter after its implementation, and any other ad hoc reports.

                     o	 A report of all attended conferences over $100,000 identified through
                        the attendance tracking tool for the fiscal year quarter after its
                        implementation through the end of FY 2013, as well as a copy of the
                        results of testing and an evaluation of evidence that the Components
                        are using the tool.

                  •	 A Memorandum or other official notification to OIG that all Components’
                     policies and procedures have been reviewed to identify any Component
                     policy deficiencies, as well as notification that these polices have been
                     updated and are compliant with DHS-wide policy requirements.



www.oig.dhs.gov                                   9                                 	    OIG-13-96
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                  •	 A copy of Risk Management and Assurance’s yearly assessment plan that
                     depicts conference control testing will be conducted on a yearly basis,
                     and a copy of the results of Risk Management and Assurance’s testing of
                     the Department’s conference controls to ensure compliance with OMB
                     guidance for FY 2013.




www.oig.dhs.gov                                 10	                                     OIG-13-96
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   We conducted this audit in response to a mandate from the House Appropriations
   Committee, which directed OIG to report no later than 30 days after the date of
   enactment of the DHS FY 2013 bill whether DHS has effective procedures in place to
   ensure compliance with all applicable Federal laws and regulations on conferences. The
   FY 2013 Appropriations Bill was enacted on March 26, 2013.

   Our audit scope was limited to examining Department and Component policies and
   procedures over conferences. We reviewed prior OIG and U.S. General Services
   Administration reports on conferences, as well as conference reports from the Office of
   Senator Tom Coburn, M.D., on the U.S. Department of Agriculture and the
   U.S. Department of Justice. We obtained and reviewed relevant Federal laws and
   regulations, including OMB guidance pertaining to conference spending. We obtained,
   reviewed, and analyzed policies and procedures over conference expenditures from the
   Department and the following nine Components because they represented 91 percent
   of $21.6 million of conference expenditures for FY 2012:

       •   Federal Emergency Management Agency
       •   National Protection and Programs Directorate
       •   Science & Technology Directorate
       •   Transportation Security Administration
       •   U.S. Citizenship and Immigration Services
       •   U.S. Coast Guard
       •   U.S. Customs and Border Protection
       •   U.S. Immigration and Customs Enforcement
       •   U.S. Secret Service

   We conducted interviews with officials from the Department’s OCFO and officials at
   each of the above Components. We obtained and reviewed conference expenditure
   data for FY 2012 from the Department. We conducted limited testing on data obtained
   from the Department. However, the extent of our testing was not sufficient to enable
   us to verify the data’s accuracy. We did not rely on the data to make any significant



www.oig.dhs.gov                               11                                      OIG-13-96
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   conclusions in the report; however, we used the Department’s data for the number of
   conferences held and the total conference expenditures reported.

   We conducted this performance audit between December 2012 and March 2013
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.




www.oig.dhs.gov                              12                                       OIG-13-96
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                                              U.S. Deportnlenl or Il onulAnd Security
                                                                                              W.shlngton. DC 20!28



                                                                                              Homeland
                                                                                              Security
                                                            May 15, 2013


           MEMORANOUM FOR :                   Charles K. Edwards
                                              Deputy Inspector General
                                              Office of Inspector General


           FROM:
                                              tJt-..-¥--r; 8~
                                              Christopher T. Brothers
                                              Assistant Director
                                              Departmental GAO-OIG Liaison Office

           SUBJECT:                           DHS ' Policies and Procedures Over Conferences (Project No. 12-
                                              I 56-AUD-DHS)


           Thank you for the opportunity to review and comment on this draft report. We appreciate the
           Office of Inspector General's (DIG's) work in planning and conducting its review and issuing
           this report.

           We arc pleased to note thal OIG concluded the Department of Homeland Security (DHS) has
           taken positive steps to ensure the Department complies with applicable policies and requirements
           governing conference spending. DHS will continue to improve on its processes, working toward
           sustainable conference controls and ensuring that conference spend ing is driven by critical
           mission requirements and is in the best interest of the Government and taxpayers.

           [n addition to tlle positi ve steps the Departmen t has taken to comply with applicable polices and
           requirements mentioned in the report, the following examples highlight the evolution ofDHS's
           enhancements to its conference oversight program. Since April 2009, through the Department's
           Efficiency Review initiative, DHS has proactivelr addressed the management of conference
           spending and focused on improving efficiencies. OHS's travel and conference guidance
           includes a stringent review policy, reviewing expenditures at the $10,000 level versus the
           S 100,000 level, and efficiency mandates that have generated cost-avoidances within DHS
           Components and offices. DI-IS conference and travel policies and controls include:

               •   maximizing the use ofGovenunent office space and facilities for training events and
                   meetings in lieu of renting more costly meeting space~
               •   limiting the number of DHS attendees to conferences; and

           IDHS's policy on conference spending and efficiencies predates OMB M- II-35 by more than 2 years. A complctc
           representation of Ihe timeline Dnd substance of DHS 's efforts regarding conference oversight is included in the
           Attachment.




www.oig.dhs.gov                                                13                                                            OIG-13-96
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security




             •    establishing conference and travel policies and controls to ensure conferences are cost-
                  effective and to ensure conference attendance is driven by critical mission requirements.

         DI-IS uscs policy gu idancc published in its Financial Management Policy Manual along with
         wo rking group meetings, data calls, Chief Financial Officer (CFO) Council meet ings, published
         alerts, and Web-based reporting and tracking products to ensure Component alignment to
         Departmental policy and l:,ruidance.

         The report contained one recommendatio n with which the Department concurs. Specifically,
         OIG recommended the Chief Financial Officer, Department of Homeland Sccuri ty:

          Reco mm endatio n : Comply with OMB and Departmental guidance to ensure that-
             •    Components are submitting all conferences for review and approval;
             •    The attendance tracking too l actually captures attendance data and is being used
                  by all Components;
             •    All Components have updated the ir conference policy requirements to ensure
                  compliance with DHS-wide policy requ irements; and
             •    The Annual Qual ity Control Review is conducted for FY 20 13, and a plan is
                  implemented to conduct testing for all futu re years.
         R es p onse: Concur. DHS is in compliance with OMB and Departmental guidance, and the
         Office of the Chief Financial Officer's (OCFO's) Office of Financial Management (FM), in
         coordination with the Components. has established a sustainable and reliable conference review
         process. In addition, FM will work in conjuncti on with OCFO's Risk Management and
         Assurance division (RM&A) to leverage controls and compliance wo rk to ensure all conferences
         exceeding a $10,000 th reshold have been reviewed and approved by the appropriate level
         fi nancial official. To enhance the current manual conference approval process, OCFO has
         developcd a Web-based approval and tracking tool that will allow Components to request
         conference hosting activities e lectron ically. In addition, this tool will be used to track actual
         conference expend itures and develop ad hoc reports. This functionality will be available for
         Component use as of May 31, 2013.

         Additionally, DHS is in compliance with OMB and Departmental guidance for tracking
         attendance by all Components. FM will continually monitor planned conferencc attendance
         through its central Web-based tracking and rcporting tool to identify situations where conference
         attendance may approach the OMB-imposed $100,000 threshold (for non-DHS sponsored
         events). which would require Deputy Secretary review and approva l. During the remaining
         months of FY 2013, DHS wi ll periodically test and evaluate tool usage to ensure all Components
         are actively using the tool. This portion of the recommendation is estimated to be complete by
         Septcmber 2013.

         FM and RM&A are also currcntly reviewing Component conference policy guidance with an
         antici pated completion date of May 31, 2013. IfOCFO identifies any Componen t deficiencies,
         we will notify the appropriate Components and request an updated policy within 120 days of the
         noti tication of any deficiency.


                                                                                                              2




www.oig.dhs.gov                                         14                                                OIG-13-96
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


    R:vI&A has incorporated conference control testing into their yearl y asscssmcnt plan. Thc plan
    will examine Department conferences on a bi-annual basis providing assessment over: Ca)
    conferences above the DHS-mandated $10,000 threshold that require Department-level approval ;
    and (b) conterences below $10,000 that req ui re Component Senior Financial Official approval.
    These assessments will support assurances over the Department's conference controls and
    compliance with OMB and Departmental gu ioance. Estimated Completion Date: January 2014.

    Again, thank you for the opportun ity to review and comment on this draft report. Technical
    comments were previously subm itted under separate cover. Please feel free to contact me if you
    have any questions. We look forward to working with you in the future.

    Attachment




                                                                                                      3



www.oig.dhs.gov                                   15                                           OIG-13-96
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

     DH S Conference Policv and Guidance History
        • April 2009 - DH S issued Efticiency Review 30-Day Initiative: Employee Travel and
           Utilization of Govemment Facilities for DHS Events

        •   June 10,2011 - DHS issued revised conference policy 7./0 COI!(erences

        •   September 2 1, 20 11 - OMB issued a memo, M- I 1-35, on Elim inating Excess Conference
            Spending and Promoting Efficiency in Govenunent.

        •   September 23, 20 I I - DHS CFO directed Component CFOs to submit all conference
            requests through the Deputy Secretary's olliee for review.

        •   September 23, 20 I I - The Depal1ment issued an updated Acquisition Alert di recting
            components to suspend all procurement acti ons for DHS hosted conferences unti l a
            conference app roval had bcen obtained through the Deputy Secretary's olliee.

        •   October, 2011 - DHS conducted a Tcst of Design and assessed and certi fied 18 key
            conference controls.

        •    ovcmber 11,20 11 - DHS CFO issued a conference FAQ.

        •   May I I, 2012 - OMB issued mcmo M- 12-1 2 on Promoting Efficient Spending in
            Support of Agency Operations.

        •   July 25, 2012 - OMB issued M-12-12, FAQs.

        •   September 13, 20 12 DHS CFO issued supplemental guidance on conferences, Financial
            Management Po licy Manual, Section 7.10. 1 Conference COIl/rols. The guidance clarifi ed
            the Department's definition ofa conference, and delegated to Components the authority
            to approve conferences costing up to $ 10,000.


        •   October 2, 20 12 - DHS issued a revised Eftieieney Review 30-Day Initiative to with
            strengthened g uidelines to eliminate non-mission critical travel; maxim ize the usc of
            conference calls and Web-based training and meetings.

        •   On January 30, 2013 - DHS CFO issued supplemcntal guidance on conferences,
            Financial Management Policy Manual Section 7.10.2, Conference COII/rois and
            Approval. This guidance requi res the use of the newly implemented conference tool fo r
            proposed attendance at nOIl-DHS hosted conferences and also increases threshold for
            Component approval lor expenses from $ 10,000 in 7. 10. 1, to a combined total of$35,000
            (Conference cxpenses less than $1 Ok and T OY less than $25k).




                                                                                            Attachment




www.oig.dhs.gov                                      16                                               OIG-13-96
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


     •   March 2013 - DHS FM rolled out Conference Tracking tool for proposed attendance at
         conferences external to DHS.

     •   May 2013 - DHS FM rolled out Conference Attendance Tool (CAT) to serve as a central
         database and work flow manager for capturing and processing Component conference
         requests and assist in standardizing quarterly conference expenditure reporting.




                                                                                  Attachment




www.oig.dhs.gov                                    17                                          OIG-13-96
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Brooke P. Bebow, Director
   Maryann Pereira, Audit Manager
   James Diaz, Program Analyst
   Hortencia Francis, Program Analyst
   Brandon Landry, Program Analyst
   Michael Staver, Program Analyst
   Jeffrey Wilson, Program Analyst
   Kevin Dolloson, Communications Analyst
   Ralleisha Dean, Independent Referencer




www.oig.dhs.gov                             18                  OIG-13-96
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                 19                         OIG-13-96
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
